       DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                            Office of Audit Services
                                                                            Region I
                                                                            John F. Kennedy Federal BuiJding
                                                                            Boston, MA 02203
                                                                            (617) 565-2684


January 6, 2009

Report Number: A-01-07-00003

Mr. Michael P. Starkowski
Commissioner
Department of Social Services,
25 Sigourney Street
Hartford, Connecticut 06106

Dear Mr. Starkowski:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (DIG), final report entitled "Review of Medicaid Outpatient Drug Expenditures in
Connecticut for the Period October 1,2003, Through September 30,2005." We will forward a
copy of this report to the HHS action official noted on the following page for review and any
action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Pursuant to the principles of the Freedom of Informa.ion Act, 5 U.S.C. § 552, as amended by
Public Law 104-231, DIG reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5). Accordingly, this report
will be posted on the Internet at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Curtis Roy, Audit Manager, at (617) 565-9281 or through e-mail at
Curtis.Roy@oig.hhs.gov. Please refer to report number A-01-07-00003 in all correspondence.

                                             Sincerely,


                                            1Jtu.1~;lf41(/V J- ft- &~f
                                             Michael J. ArItfstrong           (J
                                             Regional Inspector General
                                              for Audit Services


Enclosure
Page 2 - Mr. Michael P. Starkowski


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, lllinois 60601
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





    REVIEW OF MEDICAID 

      OUTPATIENT DRUG 

      EXPENDITURES IN 

 CONNECTICUT FOR THE PERIOD 

  OCTOBER 1, 2003, THROUGH 

     SEPTEMBER 30, 2005 





                    Daniel R. Levinson

                     Inspector General 


                      January 2009

                      A-01-07-00003

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                           Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                       at htlp://oig.hhs.gov

Pursuant to the principles of the Freedom of Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
information is not subject to exemptions in the Act (45 CFR part 5).

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY 


BACKGROUND

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Connecticut, the Department of Social Services
(the State agency) administers the Medicaid program.

In addition to providing mandatory Medicaid services, States may offer certain optional services,
such as outpatient prescription drugs, to eligible Medicaid beneficiaries. Most States, including
Connecticut, administer their Medicaid prescription drug programs in accordance with the
Medicaid drug rebate program. The program generally pays for covered outpatient drugs if the
drug manufacturers have rebate agreements with CMS and pay rebates to the States. Under the
drug rebate program, CMS provides the States with a quarterly Medicaid drug tape, which lists
all covered outpatient drugs and indicates a drug’s termination date, if applicable. CMS
guidance instructs the States to use the tape to verify coverage of the drugs for which they claim
reimbursement. The Medicaid drug rebate program does not cover drugs dispensed after the
termination date listed on the quarterly drug tape.

In Connecticut, the State agency claims Medicaid expenditures on the “Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program.” CMS reimburses the State
agency based on the Federal medical assistance percentage for the claimed Medicaid outpatient
drug expenditures. The State agency claimed $944.8 million ($481.9 million Federal share) for
reimbursement of Medicaid outpatient drug expenditures during fiscal years (FY) 2004 and
2005.

OBJECTIVE

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures for FYs 2004 and 2005 complied with Federal
requirements.

SUMMARY OF FINDINGS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for FYs
2004 and 2005 did not always comply with Federal requirements. The State agency claimed
$122,165 ($61,732 Federal share) for terminated drug products that were not eligible for
Medicaid coverage because the drugs were dispensed after the termination dates listed on the
quarterly Medicaid drug tapes. The State agency also claimed $18,479,683 ($9,401,911 Federal
share) for drug products that were not listed on the quarterly drug tapes. Because the State
agency did not verify with CMS whether these drugs were covered by manufacturers’ rebate



                                                i
agreements with CMS, these drug expenditures may not have been allowable for Medicaid
reimbursement. For the remainder of the $944.8 million ($481.9 million Federal share) claimed,
we identified no other errors with respect to whether the drugs were either terminated or included
on the CMS quarterly drug tapes.

The State agency had inadequate controls to ensure that all of its claims for outpatient drug
expenditures complied with Federal requirements.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund $61,732 to the Federal Government for drug expenditures that were not eligible
      for Medicaid coverage,

   •	 work with CMS to resolve $9,401,911 in payments for drugs that were not listed on the
      quarterly drug tapes and that may not have been eligible for Medicaid coverage, and

   •	 strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
      with Federal requirements by:

           o	 reporting expenditures only for drugs that are dispensed before the termination
              dates listed on the quarterly drug tapes and

           o	 verifying with CMS whether drugs not listed on the quarterly drug tapes are
              covered under the Medicaid program and notifying CMS when drugs are missing
              from the tapes.

DEPARTMENT OF SOCIAL SERVICES COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE

In written comments on our draft report, the State agency agreed with our first recommendation
but disagreed, in part, with our other two recommendations. The State agency concluded that the
issues that our review identified could only be resolved by more accurate and complete reporting
on the drug rebate tapes, stronger enforcement of rebate provisions between CMS and drug
manufacturers, and improved communications between CMS and the States.

We continue to recommend that the State agency work with CMS to resolve the $9.4 million in
payments for drugs that were not listed on the quarterly drug tapes and thus may not have been
eligible for Medicaid coverage. We also continue to recommend that the State agency strengthen
internal controls to ensure that claimed Medicaid drug expenditures comply with Federal
requirements.

The State agency’s comments are included in their entirety as the Appendix.




                                                 ii
                                                  TABLE OF CONTENTS 


                                                                                                                                   Page


INTRODUCTION.......................................................................................................................1


          BACKGROUND ..............................................................................................................1 

              Medicaid Program.................................................................................................1              

              Medicaid Outpatient Prescription Drug Program .................................................1 

              Reimbursement of Medicaid Expenditures...........................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY ............................................................2 

               Objective ...............................................................................................................2 

               Scope.....................................................................................................................2    

               Methodology .........................................................................................................2         


FINDINGS AND RECOMMENDATIONS .............................................................................3 


          CLAIMS FOR TERMINATED DRUGS .........................................................................3


          CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES...................4 


          INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND 

            POTENTIALLY UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES.........5 


          REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY 

           UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES.....................................5 


          RECOMMENDATIONS..................................................................................................5                  


          DEPARTMENT OF SOCIAL SERVICES COMMENTS ..............................................6 


           OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................6 


APPENDIX

          DEPARTMENT OF SOCIAL SERVICES COMMENTS




                                                                    iii
                                               INTRODUCTION 


BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Connecticut, the Department of Social Services
(the State agency) administers the Medicaid program.

State Medicaid programs must provide certain medical services, including inpatient and
outpatient hospital, physician, and family planning services. States also may offer certain
optional services, such as outpatient prescription drugs, as long as the services are included in
their approved State plans.

Medicaid Outpatient Prescription Drug Program

All States offer outpatient prescription drugs to eligible Medicaid beneficiaries. Most States,
including Connecticut, administer their Medicaid prescription drug programs in accordance with
the Medicaid drug rebate program. 1 The program generally pays for covered outpatient drugs if
the drug manufacturers have rebate agreements with CMS and pay rebates to the States. The
rebate agreements require manufacturers to provide a list of all covered outpatient drugs to CMS
quarterly. CMS includes these drugs on a quarterly Medicaid drug tape, makes adjustments for
any errors, and sends the tape to the States. The tape indicates a drug’s termination date, 2 if
applicable; specifies whether the drug is less than effective; 3 and includes information that the
States use to claim rebates from drug manufacturers. CMS guidance instructs the States to use
the tape to verify coverage of the drugs for which they claim reimbursement and to calculate the
rebates that the manufacturers owe. The drug rebate program does not cover drugs dispensed
after the termination date listed on the quarterly drug tape.




1
 The Omnibus Budget Reconciliation Act of 1990 established the Medicaid drug rebate program effective
January 1, 1991. The program is set forth in section 1927 of the Act. Arizona is the only State that does not
participate in the program.
2
 The termination date, which the manufacturer submits to CMS, reflects the shelf-life expiration date of the last
batch sold for a particular drug code. However, if the drug is pulled from the market for health or safety reasons, the
termination date is the date that the drug is removed from the market.
3
 The Food and Drug Administration determines whether drugs are less than effective. Such drugs lack substantial
evidence of effectiveness for all conditions of use prescribed, recommended, or suggested in their labeling.


                                                          1

Reimbursement of Medicaid Expenditures

In Connecticut, the State agency claims Medicaid expenditures on Form CMS-64, “Quarterly
Medicaid Statement of Expenditures for the Medical Assistance Program” (CMS-64). CMS
reimburses the State agency based on the Federal medical assistance percentage (reimbursement
rate) for the majority of claimed Medicaid expenditures, including outpatient drug expenditures.

For Federal fiscal years (FY) 2004 and 2005, Connecticut’s Federal reimbursement rate for
Medicaid expenditures varied from 50.00 percent to 52.95 percent.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency’s claims for reimbursement of
Medicaid outpatient drug expenditures for FYs 2004 and 2005 complied with Federal
requirements.

Scope

The audit scope included $944.8 million ($481.9 million Federal share) in Medicaid outpatient
drug expenditures that the State agency claimed for FYs 2004 and 2005. We limited our testing
of these expenditures to determining compliance with specific Federal requirements related to
whether the drugs were eligible for Medicaid coverage and were accurately claimed for Federal
reimbursement.

We limited our internal control review to the State agency’s procedures for determining whether
the outpatient drugs were eligible for Medicaid coverage and were accurately claimed for
Federal reimbursement. We did not review the accuracy or completeness of the quarterly
Medicaid drug tapes.

We conducted fieldwork at the State agency’s offices in Hartford, Connecticut, from July 2007
through August 2008.

Methodology

To accomplish our objective, we reviewed applicable Federal laws, regulations, and program
guidance. We interviewed State agency officials responsible for identifying and monitoring drug
expenditures and rebate amounts. We also interviewed staff responsible for reporting drug
expenditures to CMS.

We used the CMS quarterly drug tapes for the period October 1, 1999, through June 30, 2006.
We reconciled the amounts that the State agency reported on its CMS-64s to a detailed list of the
State agency’s outpatient drug expenditures. We also used the detailed list of drug expenditures
to determine whether the expenditures complied with Federal requirements. Specifically, we
determined whether the drugs for which the State agency claimed reimbursement were dispensed



                                                2

after the termination dates listed on the quarterly drug tape. To account for reasonable delays in
processing data for terminated drugs, we used the first day of the quarter after the State received
the tape as the termination date if the termination dates were provided to the State retroactively.

We also determined whether the drugs claimed for reimbursement were listed on the applicable
quarterly drug tape. If the drugs were not listed on the tape, we determined if the State agency
had verified whether the drugs were eligible for Medicaid coverage.

We calculated the Federal share of the expenditures using the reimbursement rate (50.00 percent
to 52.95 percent) applicable for each quarter. We did not reduce the questioned drug
expenditures by the rebate amounts that the State received.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency’s claims for reimbursement of Medicaid outpatient drug expenditures for FYs
2004 and 2005 did not always comply with Federal requirements. The State agency claimed
$122,165 ($61,732 Federal share) for terminated drug products that were not eligible for
Medicaid coverage because the drugs were dispensed after the termination dates listed on the
quarterly Medicaid drug tapes. The State agency also claimed $18,479,683 ($9,401,911 Federal
share) for drug products that were not listed on the quarterly drug tapes. Because the State
agency did not verify with CMS whether these drugs were covered by manufacturers’ rebate
agreements with CMS, these drug expenditures may not have been allowable for Medicaid
reimbursement. For the remainder of the $944.8 million ($481.9 million Federal share) claimed,
we identified no other errors with respect to whether the drugs were either terminated or included
on the CMS quarterly drug tapes.

The State agency had inadequate controls to ensure that all of its claims for outpatient drug
expenditures complied with Federal requirements.

CLAIMS FOR TERMINATED DRUGS

Pursuant to 21 CFR § 211.137, each drug must have an expiration date to ensure that the drug
meets certain standards, including strength and quality, at the time of its use. The expiration date
effectively establishes a shelf life for the product. The termination date equals the expiration
date of the last batch sold, except in cases when the product is pulled from the market. In those
cases, the termination date may be earlier than the expiration date.

According to the CMS Medicaid drug rebate program memorandum to State Medicaid directors,
number 19, the States “must . . . assure that claims submitted by pharmacists are not for drugs




                                                 3

dispensed after the termination date. These should be rejected as invalid since these drugs
cannot be dispensed after this date.”

The CMS Medicaid drug rebate program memorandum to State Medicaid directors, number 130,
states that “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program . . . .” The quarterly drug tapes list the Medicaid-covered
drugs’ termination dates as reported by the drug manufacturers.

For FYs 2004 and 2005, the State agency claimed $122,165 ($61,732 Federal share) in
expenditures for drugs that, according to the State’s records, were dispensed after the termination
dates shown on the quarterly drug tapes. For example, the State agency paid for the drug
Nystatin, which was dispensed on December 31, 2003. However, the drug’s termination date
was March 5, 2003, according to the tapes beginning with the quarter that ended March 31, 2002.
The claimed expenditure was unallowable because it occurred after the drug’s termination date,
which was listed on the quarterly drug tape at the time the State agency made the expenditures.

CLAIMS FOR DRUGS NOT LISTED ON QUARTERLY DRUG TAPES

Section 1927(a)(1) of the Act generally conditions Medicaid reimbursement for covered
outpatient drugs on a requirement that manufacturers of those products enter into rebate
agreements with CMS under which they pay rebates to the States. 4 The rebate agreements
require manufacturers to provide a list of all covered outpatient drugs to CMS quarterly. CMS
includes these drugs on the quarterly drug tapes and makes adjustments for any errors.

Section 1927(k)(4) of the Act provides that covered outpatient drugs shall also include drugs that
may be sold without a prescription (“over-the-counter” drugs), if these drugs are approved by the
State plan and prescribed by a physician.

According to the CMS Medicaid drug rebate program memorandum to State Medicaid directors,
number 130: “. . . the CMS [quarterly drug tape] is the one to use for ALL data when you are
dealing with the drug rebate program . . . . If [a drug code] that is not on the last CMS [quarterly
drug tape] you received is billed to you by a pharmacy, . . . check with CMS to assure that the
[drug code] is valid . . . .” Furthermore, the CMS Medicaid drug rebate program memorandum
to State Medicaid directors, number 44, provides that “States must check the [quarterly drug
tape] to ensure the continued presence of a drug product . . . .”

The CMS “Medicaid Drug Rebate Operational Training Guide,” page S13, states: “If you have
paid for [a drug code] that is NOT on [the quarterly drug tape] you should have checked to make
sure it was correct. If you paid a pharmacy for utilization on an invalid [drug code], you may
have to . . . recoup your funds.”

For FYs 2004 and 2005, the State agency claimed $18,479,683 ($9,404,911 Federal share) in
expenditures for drug products that were not listed on the quarterly drug tapes. The majority of

4
 Pursuant to Section 1927(a)(3) of the Act, a State may exempt single source or innovator multiple source drugs
from the requirement to be covered by a drug rebate agreement if the State has determined that availability of the
drug is essential to the health of Medicaid beneficiaries and if certain other conditions are met.


                                                          4

these expenditures ($14.6 million) were for “over the counter” drugs that were generally covered
under the State plan. For example, the State claimed approximately $3 million for the nutritional
supplement Ensure. However, Ensure was not listed on the CMS drug tape, which would have
confirmed the existence of a national rebate agreement. The State agency did not contact CMS
to determine that drugs not on the quarterly drug tapes were covered by manufacturers’ rebate
agreements with CMS. As a result, the State agency did not have conclusive evidence that these
payments were allowable Medicaid expenditures.

INADEQUATE CONTROLS TO DETECT UNALLOWABLE AND POTENTIALLY
UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency did not have adequate controls to ensure that all Medicaid drug expenditures
complied with Federal requirements or to detect unallowable and potentially unallowable claims
for reimbursement. The State agency did not check the quarterly drug tapes to ensure that the
drugs were eligible for Medicaid coverage.

REIMBURSEMENT OF UNALLOWABLE AND POTENTIALLY
UNALLOWABLE CLAIMS FOR DRUG EXPENDITURES

The State agency claimed Federal reimbursement for certain drugs that were not eligible for
Medicaid coverage because they were terminated. As a result, for FYs 2004 and 2005, the State
agency claimed unallowable expenditures totaling $122,165 ($61,732 Federal share) for these
drugs. The State agency also claimed Federal reimbursement for drug products that were not
listed on the quarterly drug tapes. For these drugs, we set aside potentially unallowable
expenditures totaling $18,479,683 ($9,404,911 Federal share) for CMS adjudication because the
State agency did not verify with CMS whether the drugs were covered by Medicaid.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund $61,732 to the Federal Government for drug expenditures that were not eligible
      for Medicaid coverage,

   •	 work with CMS to resolve $9,401,911 in payments for drugs that were not listed on the
      quarterly drug tapes and that may not have been eligible for Medicaid coverage, and

   •	 strengthen internal controls to ensure that claimed Medicaid drug expenditures comply
      with Federal requirements by:

           o	 reporting expenditures only for drugs that are dispensed before the termination
              dates listed on the quarterly drug tapes and

           o	 verifying with CMS whether drugs not listed on the quarterly drug tapes are
              covered under the Medicaid program and notifying CMS when drugs are missing
              from the tapes.


                                                5

DEPARTMENT OF SOCIAL SERVICES COMMENTS

In written comments on our draft report, the State agency agreed with our first recommendation
but disagreed, in part, with our other two recommendations. Specifically:

   •	 In response to our second recommendation, the State agency said that it had assumed that
      a Federal match, totaling $7.3 million, would be available for drug expenditures for over-
      the-counter drugs because these drugs were covered in its CMS-approved State plan. The
      State agency maintained that its claim for the remaining $2.1 million in drug expenditures
      was appropriate because it was for drugs for which the State agency had received rebates.

   •	 In response to our third recommendation, the State agency said that it maintained
      sufficient controls to ensure that claimed Medicaid drug expenditures complied with
      Federal requirements. However, the State agency also stated that it would review and
      revise internal reporting requirements to address the appropriate reporting to CMS of
      covered over-the-counter drugs.

The State agency concluded that the issues that our review identified could only be resolved by
more accurate and complete reporting on the drug rebate tapes, stronger enforcement of rebate
provisions between CMS and drug manufacturers, and improved communications between CMS
and the States.

OFFICE OF INSPECTOR GENERAL RESPONSE

We continue to recommend that the State agency work with CMS to resolve the $9.4 million in
payments for drugs, the majority of which were over-the-counter drugs, that were not listed on
the quarterly drug tapes and thus may not have been eligible for Medicaid coverage. We
recognize that section 1927(k)(4) of the Act treats over-the-counter drugs as covered outpatient
drugs when prescribed by a physician and allowed by the State plan. However, for drugs that are
not listed on the CMS quarterly tape, CMS still requires that State agencies contact CMS first to
determine whether the drugs are eligible. Moreover, receiving drug rebates does not, by itself,
indicate that the drugs are eligible for Federal Medicaid reimbursement.

We also continue to recommend that the State agency strengthen its internal controls to ensure
that claimed Medicaid drug expenditures comply with Federal requirements. Because the State
agency did not have sufficient internal controls to ensure that it followed Medicaid guidance,
CMS reimbursed the State agency $61,732 for terminated drugs that were not eligible for
Medicaid coverage.

The State agency’s comments are included in their entirety as the Appendix.




                                               6

APPENDIX

Appendix
  Page 1 of 2
Appendix Page
  Page 2 of 2
